    DEPARTMENT OF HOMELAND SECURITY

            Office of Inspector General


                Security Weaknesses Increase 

                Risks to Critical United States 

            Citizenship and Immigration Services 

                           Database 

                          (Redacted)





Notice: The Department of Homeland Security, Office of Inspector General, has redacted this report
for public release. The redactions are identified as (b)(2), comparable to 5 U.S.C. § 552(b)(2). A
review under the Freedom of Information Act will be conducted upon request.




                    Office of Information Technology

   OIG-05-42                                                September 2005
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

This report assesses the strengths and weaknesses of database security controls over United States
Citizenship and Immigration Services (USCIS) database resources. It is based on interviews with
USCIS officials, direct observations, technical tests, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner           

                                      Inspector General        

Table of Contents/Abbreviations 



  Executive Summary ...................................................................................................................... 1 


  Background ................................................................................................................................... 3 


  Results of Audit ............................................................................................................................ 5 


       Strengthening of Database Security Procedures Is Needed.................................................... 5 

       Recommendations................................................................................................................... 9 

       Management Comments and OIG Analysis ........................................................................... 10 


Appendices
  Appendix A:            Purpose, Scope, and Methodology ...................................................................... 13 

  Appendix B:            Management’s Response..................................................................................... 15 

  Appendix C:            FISMA Metrics.................................................................................................... 20 

  Appendix D:            Major Contributors to this Report ....................................................................... 22 

  Appendix E:            Report Distribution.............................................................................................. 23 



Abbreviations
  ATL                            Advanced Technology Laboratory 

  ATO                            Authority to Operate      

  C&A                            Certification and Accreditation 

  CIO                            Chief Information Officer 

  DBMS                           Database Management System

  DHS                            Department of Homeland Security 

  DHS Handbook                   DHS Sensitive Systems Handbook 

  DHS Policy                     DHS Sensitive Systems Policy Publication 4300A 

  DOJ                            Department of Justice 

  FISMA                          Federal Information Security Management Act of 2002 

  ICE                            United States Immigration and Customs Enforcement 

  ISSO                           Information Systems Security Officer 

  IT                             Information Technology       

  NIST                           National Institute of Standards and Technology

  OIG                            Office of Inspector General 

  OMB                            Office of Management and Budget 

  POA&M                          Plan of Action and Milestones 



                          Security Weaknesses Increase Risks to Critical USCIS Database
Table of Contents/Abbreviations 


  USCIS         United States Citizenship and Immigration Services
  SP            Special Publication




           Security Weaknesses Increase Risks to Critical USCIS Database
OIG 

Department of Homeland Security
Office of Inspector General



Executive Summary

                          We audited the Department of Homeland Security (DHS) and its organizational
                          components’ security program to evaluate the security and integrity of select
                          sensitive but unclassified mission critical databases.1 This audit included
                          reviews of access controls, change management, and continuity of operations
                          policies and procedures. This report assesses the strengths and weaknesses of
                          security controls over United States Citizenship and Immigration Services
                          (USCIS) database resources.

                          Our objective was to determine whether USCIS had implemented adequate and
                          effective controls over sensitive data contained in its Central Index System.
                          Information contained in the Central Index System is used to assist in the
                          enforcement of United States immigration laws. We interviewed USCIS
                          officials, reviewed database security documents, and performed technical tests
                          of the Central Index System mainframe computer.

                          Although USCIS has not established adequate or effective database security
                          controls for the Central Index System, it has implemented many essential
                          security controls such as procedures for controlling temporary or emergency
                          system access, a configuration management plan, and procedures for
                          implementing routine and emergency changes. Further, we did not identify any
                          significant configuration weaknesses during our technical tests of the Central
                          Index System. However, additional work remains to implement the access
                          controls, configuration management procedures, and continuity of operations
                          safeguards necessary to protect sensitive Central Index System data effectively.
                          Specifically, USCIS has not: 1) implemented effective user administration


1
  DHS “organizational components” are defined as directorates, including organizational elements and bureaus, and critical
agencies.


                          Security Weaknesses Increase Risks to Critical USCIS Database
                                                              Page 1
                           procedures; 2) reviewed and retained -                                 - effectively;2
                           3) ensured that system changes are properly controlled; 4) developed and tested
                           an adequate Information Technology (IT) contingency plan; 5) implemented
                           ------------------------------------------------------------------------ ; or, 6) monitored
                           system security functions sufficiently. These database security exposures
                           increase the risk that unauthorized individuals could gain access to critical
                           USCIS database resources and compromise the confidentiality, integrity, and
                           availability of sensitive Central Index System data. ------ - - ----------- - ---------
                           ------------------------- -------------------------- ---

                           Following the completion of our review, USCIS officials stated that they have
                           already taken or plan to take corrective action to address some of the
                           weaknesses we identified. As our fieldwork was complete, we did not verify
                           that the weaknesses had been remedied.

                           We recommend that USCIS Director instruct the Chief Information Officer
                           (CIO) to:
                               • 	 Ensure that adequate controls for granting, monitoring, and removing
                                   user access to the Central Index System are implemented.
                               • 	 Review and retain -                              - on the Central Index System.
                               • 	 Ensure that system changes to the Central Index System are adequately
                                   controlled.
                               • 	 Develop and test a Central Index System IT contingency plan.
                               • 	 Examine methods to implement -
                                   ----------------------------------------- .
                               • 	 Monitor system security functions for the Central Index System.

                           In addition, to comply with the Office of Management and Budget’s (OMB)
                           Federal Information Security Management Act of 2002 (FISMA) reporting
                           requirements, we evaluated the effectiveness of the USCIS’ information
                           security program and practices as implemented for the Central Index System.3
                           USCIS has not aligned fully its security program with DHS’ overall policies,
                           procedures, or practices. For example, security controls are not routinely tested
                           and evaluated; a contingency plan has not been established and tested; and,
2
  Audit trails maintain a record of system activity both by system and application processes and by users of the systems and 

applications. The audit trail is the evidence that demonstrates how a specific transaction was initiated, processed, and 

summarized. In conjunction with appropriate tools and procedures, audit trails can assist in detecting security violations, 

performance problems, and flaws in applications. 

3
  FISMA is included under Title III of the E-Government Act of 2002 (Public Law 107-347). 



                           Security Weaknesses Increase Risks to Critical USCIS Database
                                                               Page 2
                          system and database administrators have not obtained specialized security
                          training. Appendix C summarizes the results of our FISMA evaluation.

                          Fieldwork was conducted from January to May 2005 at USCIS and United
                          States Immigration and Customs Enforcement (ICE) facilities in Washington,
                          DC; the Department of Justice (DOJ) Justice Data Centers in ------------------
                          and ------------- ; and, the Office of Inspector General’s (OIG) Advanced
                          Technology Laboratory (ATL).4 See Appendix A for our purpose, scope, and
                          methodology.

                          In response to our draft report, the USCIS Acting Deputy Director concurred
                          with our recommendations and is in the process of implementing corrective
                          measures. In addition, USCIS is in the process of building an IT Security
                          Office and implementing security, privacy, systems development, and
                          continuity of operations best practices. USCIS’ response is summarized and
                          evaluated in the body of this report and included, in its entirety, as Appendix B.

Background
                          A database is one or more large structured sets of data (fields, records, and files)
                          organized so that the data can be easily accessed, managed, and updated. Most
                          often, databases are associated with software used to update and query the data,
                          called a database management system (DBMS). The DBMS can be an
                          extremely complex set of software programs that controls the organization,
                          storage, and retrieval of data in a database. In addition, the DBMS, in
                          conjunction with its host operating system, controls access to the data and
                          ensures the security and integrity of the database. DBMS’ can be classified
                          according to their architectural model (e.g., relational, hierarchical, or network),
                          and can be centralized on one platform or distributed across multiple servers.

                          Databases and DBMS’ have become a more frequent target of attack for
                          malicious users. Such an attack can result in financial loss, loss of privacy, or a
                          breach of national security as well as the many other varieties of corruption that
                          result from unauthorized access to sensitive data. To counter this threat, a
                          number of security options are available to protect the data housed in databases.
                          For these measures to be effective, however, DBMS security controls must be
                          properly configured and maintained. In addition, as database products have
                          become more complex and the attacks against them have increased, a number of

4
 The ATL supports our capability to perform effective and efficient technical assessments of DHS information systems
and diverse operating environments. The ATL is a collection of hardware and software that allows the simulation, testing,
and evaluation of the computing environments that are most commonly used within DHS.


                          Security Weaknesses Increase Risks to Critical USCIS Database
                                                              Page 3
vulnerabilities have been identified that could be exploited by attackers. DBMS
vendors have responded by issuing patches or fixes for discovered
vulnerabilities. These patches must be applied—quickly and appropriately—to
ensure that critical data is protected adequately.

The Central Index System was established in 1985 to assist in the enforcement
of the immigration laws of the United States. The system contains information
on the status of approximately 55 million individuals, including permanent
residents, naturalized citizens, border crossers, apprehended aliens, aliens issued
employment authorization, and others of interest to the federal government.
This system helps ensure proper entry decisions by providing DHS field offices,
ports of entry, and examination and inspection sites prompt access to
biographical and status information on those seeking legal entry to or residence
in the United States. Also, the Central Index System assists the department in
the identification of individuals who violate the terms of their stay, who enter
the United States illegally, or who are otherwise not entitled to entry or benefits.

The Central Index System resides on a mainframe computer at the DOJ Justice
Data Center in ------------- . The system employs a ------------------------- using
-------------------------------------------- DBMS, -- ---- --- operating system, and
-                  security software. Currently, there are over 33,000 Central
Index System users, including officials from DHS, the Central Intelligence
Agency, Drug Enforcement Administration, Federal Bureau of Investigation,
Department of State, and congressional committees. Central Index System
users access the system through a wide area network connection from locations
throughout the country as well as some overseas sites.

DHS Sensitive Systems Policy Publication 4300A (DHS Policy) provides
direction to DHS components regarding the management and protection of
sensitive systems. Also, this policy outlines the management, operational, and
technical controls necessary to ensure confidentiality, integrity, availability, and
authenticity within the DHS IT infrastructure and operations. DHS Policy
requires that its components ensure that strong access controls, IT contingency
planning safeguards, and change and configuration management procedures are
implemented for all systems processing sensitive but unclassified information.
The department developed the DHS Sensitive Systems Handbook
(DHS Handbook) to provide components with specific techniques and
procedures for implementing the requirements of this policy.

The National Institute of Standards and Technology (NIST) has issued several
publications related to database system access controls, change and
configuration management, and IT contingency planning. Specifically, NIST


Security Weaknesses Increase Risks to Critical USCIS Database
                                    Page 4
               Special Publication (SP) 800-12, An Introduction to Computer Security: The
               NIST Handbook, provides guidance for establishing adequate access controls for
               sensitive government systems, including the use of strong passwords,
               encryption, and user administration practices. Also, NIST SP 800-12 provides
               guidance on effectively controlling changes to sensitive information systems.
               Further, NIST SP 800-34, Contingency Planning Guide for Information
               Technology Systems, provides instructions, recommendations, and
               considerations for government IT contingency planning.


Results of Audit

  Strengthening of Database Security Procedures Is Needed
               USCIS has not developed or implemented the security controls necessary to
               protect the Central Index System and its data. In assessing the procedures
               governing the security of sensitive data contained in the Central Index System,
               we identified user administration, auditing, change management, IT contingency
               planning, -                  system security monitoring weaknesses. Therefore,
               there is significant risk that the security procedures protecting the Central Index
               System may not prevent unauthorized access to its systems and data. In
               addition, USCIS may not be able to recover Central Index System operations
               following a disaster or disruption.

               User Administration Procedures Are Incomplete

               USCIS has implemented a process to grant, monitor, and remove Central Index
               System user access, which includes controls to protect access to the system and
               its data. For example, USCIS has established a process to control emergency
               and temporary user access, as well as a process to disable accounts after --- days
               of inactivity. However, additional procedures must be implemented to ensure
               that access to the Central Index System is restricted appropriately. From a
               random sample of 20 active Central Index System user accounts, we identified
               three users who had access rights that had not been authorized, including one
               user with administrator rights to the system. Central Index System officials
               stated that the access permissions for two of the accounts were not updated
               because of a system administrator error. In addition, the supervisor for the user
               with privileged access stated that she had verbally requested that this access be
               revoked. However, since a formal access change form had not been submitted,
               the user’s administrator rights were not rescinded.




               Security Weaknesses Increase Risks to Critical USCIS Database
                                                   Page 5
                           DHS Policy requires that access is controlled and limited based on positive user
                           identification and authentication mechanisms, which support the minimum
                           requirements of access control, least privilege, and system integrity.5 Since
                           Central Index System user administration procedures have not been fully
                           implemented, there is increased risk that inappropriate individuals may access
                           sensitive Central Index System data. As a result, sensitive system information
                           may not be protected adequately.

                           Central Index System Auditing Is Inadequate

                           USCIS does not have procedures to periodically review -                                   -
                           --- - --- ------ for the Central Index System. USCIS records pertinent information
                           related to certain -------------------- ----- -----------------------------------------
                           -------------------------------------------- - -- ------------------------ ----------------
                           ---------- . While -------------------- ------- -------------------------------------- - --- ,
                           --------------------------------------------- -------------------------------------------
                           ------------------------------------------------- ---------------------------------------------
                           -                                                     . In addition, although -
                                          are retained, -                                  are kept for only two years
                           because the Central Index System mainframe administrators were not aware of
                           DHS audit trail retention requirements.

                           Audit trails help ensure individual accountability by tracking a user’s activities
                           while accessing an automated system. However, to be effective, significant
                           security events must be recorded and the audit trails must be reviewed and
                           retained. According to the DHS Handbook, the review of audit trail information
                           is essential because unauthorized access, modification, or destruction of data
                           may be discovered only through the review process. Also, the DHS Handbook
                           requires that Information Systems Security Officers (ISSO) review audit trail
                           information weekly or in accordance with the system security plan, and that
                           audit trail information be retained for seven years. Due to the lack of adequate
                           audit review and retention procedures, inappropriate access to sensitive data or
                           malicious changes to the Central Index System may not be detected or
                           investigated.

                           A Central Index System Upgrade Was Not Adequately Controlled

                           USCIS has established a configuration management plan and change
                           management procedures for controlling routine and emergency changes to the

5
 The principle of least privilege requires that users be given the most restrictive set of privileges needed to perform
authorized tasks.


                           Security Weaknesses Increase Risks to Critical USCIS Database
                                                               Page 6
Central Index System. Further, USCIS has implemented a process to conduct
annual reviews of a sample of changes to Central Index System applications.
However, USCIS has not ensured that all changes to the Central Index System
go through the established change management process. Specifically, we
identified an upgrade to the Central Index System DBMS, conducted in April
2005, which, due to an administrative error, did not go through the established
review and approval process for system changes. USCIS officials stated that
they are working to ensure that similar omissions do not occur in the future.

DHS Policy requires that organizational components establish, implement, and
enforce change management and configuration management controls on all IT
systems and networks. Further, the DHS Handbook requires that the initial
configuration of a system be documented in detail, and that all subsequent
changes to any components of the system be controlled through a complete and
robust change management process. Because the Central Index System upgrade
did not go through the established change management process, there was
greater risk that the confidentiality, availability, or integrity of the system and
its data would be compromised.

An IT Contingency Plan Has Not Been Developed and Tested

Although USCIS has developed and tested an IT contingency plan for the
Central Index System mainframe operating system and general support systems,
the IT contingency plan for the system’s applications does not contain all of the
information necessary to ensure that the system can be recovered. For example,
the plan does not include -
-
--------------------------------------- Further, the IT contingency plan for the
system’s applications has not been tested. USCIS officials stated that they are
not aware of any plans to update the IT contingency plan for Central Index
System applications.

In addition, we identified the following issues related to Central Index System
data backup and restoration procedures:
    • 	 The backup tapes used for offsite storage of sensitive Central Index
        System data -
        Although adequate physical security measures are maintained at the
        contracted offsite storage facility, -
        ------------------------------ -------------- --------------------- ----------
        ----------------------------------------------------------------------- -----




Security Weaknesses Increase Risks to Critical USCIS Database
                                    Page 7
     • 	 Although the restoration of operating system files is periodically tested,
         USCIS has not conducted a formal test of backup and restoration
         procedures for Central Index System applications and data.

DHS Policy requires that comprehensive IT contingency plans be developed,
tested, exercised, and maintained for critical major applications and general
support systems. Also, DHS requires that quarterly tests of data backup and
restoration procedures be performed.

The non-availability of sensitive information processed and stored by the
Central Index System could significantly impact USCIS and DHS missions.
Contingency planning is essential because it establishes the plans, procedures,
and technical measures necessary to recover a system quickly and effectively
following a service outage or disaster. IT contingency plan testing enables
deficiencies to be identified and addressed, and helps evaluate the ability of the
recovery staff to implement the plan quickly and effectively. Formal tests of
established data restoration procedures are an integral part of testing the overall
contingency plan, and help ensure that all necessary data can be recovered in the
event of a disaster. As a result of the lack of adequate contingency planning and
testing for the system, including tests of the Central Index System data
restoration process, USCIS lacks assurance that it will be able to resume
operations following a disaster.

	-                      Has Not Been Implemented

USCIS has not implemented -------------------- to protect sensitive Central Index
System data. Specifically, USCIS is not -
------------------------------------------ --------------------- . The component
conducted a pilot test of -------------- --------------- , but did not purchase the
software because of its cost.

According to the DHS Handbook, --------------- -- reliable and achievable way to
ensure confidentiality for sensitive data. DHS Policy requires that the
department’s components identify IT systems transmitting sensitive information
that may require protection, and develop ------------------- for their sensitive IT
systems. In addition, NIST recommends that ----------------------- be
implemented to protect the integrity and confidentiality of critical data and
software programs. As a result of these -                          , an individual
could -
------------------- .




Security Weaknesses Increase Risks to Critical USCIS Database
                                    Page 8
                         USCIS Is Not Monitoring System Security Functions Adequately

                         USCIS is not monitoring sufficiently the security activities performed by ICE
                         and DOJ personnel for the Central Index System.6 Specifically, USCIS does
                         not have a process to verify that ICE and DOJ information technology staff are
                         performing necessary security or user administration functions for the Central
                         Index System and personnel. For example, USCIS personnel do not
                         -                                         - or perform periodic vulnerability
                         assessments or configuration reviews. Further, USCIS does not ensure that
                         these functions are being performed by ICE and DOJ personnel.

                         According to officials, USCIS cannot provide security oversight for the Central
                         Index System because of resource constraints; the Central Index System ISSO
                         position is a collateral duty; and, the transition of certain IT functions from ICE
                         to USCIS is still in progress. However, the Information Systems Security
                         Manager stated that USCIS is currently working to address this issue.

                         FISMA requires that senior agency officials provide security for the information
                         and information systems that support the operations and assets under their
                         control. Without an established process to monitor the quality of user
                         administration and security management functions performed by ICE and DOJ
                         officials, USCIS lacks assurance that sufficient security is provided for the
                         Central Index System and its data.

                         Recommendations

                         To protect sensitive Central Index System data, we recommend that the USCIS
                         Director instruct the CIO to:
                              1. 	 Strengthen procedures to ensure that adequate controls for granting,
                                   monitoring, and removing user access to the Central Index System are
                                   implemented according to DHS requirements and NIST guidelines.
                              2. 	 Review and retain -                       to facilitate the detection and
                                   investigation of inappropriate access or malicious changes to the Central
                                   Index System.



6
 USCIS and ICE were part of the former Immigration and Naturalization Service of the DOJ. The Central Index System
currently resides on a mainframe computer housed at a DOJ facility. The operating system of the Central Index System
mainframe computer is controlled and administered by DOJ personnel. In addition, ICE personnel and contractors provide
development and operations support for the Central Index System.


                         Security Weaknesses Increase Risks to Critical USCIS Database
                                                             Page 9
                                 3. 	 Strengthen change management procedures to ensure that routine and
                                      emergency modifications to the Central Index System are adequately
                                      controlled; and, consider strengthening the annual change management
                                      review process.
                                 4. 	 Develop an adequate IT contingency plan for Central Index System
                                      applications; and, ensure that annual tests of the plan and quarterly tests
                                      of data restoration procedures are conducted.
                                 5. 	 Examine methods to implement -
                                      ----------------------------- -------------------------- ---------------------
                                      -
                                 6. 	 Monitor Central Index System security functions to ensure that adequate
                                      security is provided for the system and its data.

                             Management Comments and OIG Analysis

                             USCIS concurs with recommendation 1. USCIS plans to assume control of user
                             administration functions for USCIS’ major applications, including the Central
                             Index System, in fiscal year 2006.7 Once implemented, the new user
                             administration procedures will include the documentation and maintenance of
                             system access authorizations at USCIS, ISSO review of access requests, as well
                             as annual recertification of user access privileges by the ISSO.

                             We accept USCIS’ response to enhance its controls for granting, monitoring,
                             and removing user access to the Central Index System.

                             USCIS concurs with recommendation 2. USCIS plans to address DHS audit file
                             content, review, and retention requirements at the -------------------- -----------
                             -------------------------------------------------- layers. In addition, USCIS plans to
                             establish procedures for the Central Index System ISSO to conduct daily
                             reviews of ------------------------ and security reports by April 30, 2006.

                             We accept USCIS’ response to implement DHS audit file content and retention
                             requirements, as well as daily reviews of Central Index System -
                             -          . However, USCIS should establish a timeline for the
                             implementation DHS’ audit retention requirements.

                             USCIS concurs with recommendation 3. USCIS is in the process of updating its
                             change control/change management process to better address security and
                             emergency changes. USCIS plans to implement the updated process by

7
    ICE personnel currently perform user administration functions for the Central Index System.


                             Security Weaknesses Increase Risks to Critical USCIS Database
                                                                Page 10
October 1, 2005. In addition, the USCIS Office of the CIO will reanalyze
recent changes to the Central Index System applications and verify that the
changes were properly reviewed, tested, and authorized via the change control
process. Beginning in fiscal year 2006, these reviews will be conducted at least
every quarter.

We agree that the actions USCIS plans to take satisfy the intent of the
recommendation.

USCIS concurs with recommendation 4. USCIS is planning to reassess all of
the component’s major applications and general support systems, beginning in
the first quarter of fiscal year 2006. This process will include an assessment of
each system’s existing contingency plan, as well as the use of a standard
template to develop site and application specific contingency plans. Once the
plans have been developed, USCIS will establish a process to conduct annual
tests of the plans.

We accept USCIS’ response to develop and annually test an IT contingency
plan for the Central Index System. However, USCIS did not indicate that
quarterly data restoration tests would be performed. We maintain that USCIS
should have a process to ensure that quarterly data restoration tests are
conducted, in accordance with DHS requirements.

USCIS concurs with recommendation 5. USCIS plans to reexamine its
information classification guidelines as well as all information classifications
during the first quarter of fiscal year 2006, to ensure that appropriate security
controls have been implemented. However, USCIS plans to decommission the
Central Index System as part of its IT Transformation Program. The Central
Index System will be replaced by one or more systems that include more
stringent security controls, -                     .

We accept USCIS’ response to reexamine its information classifications as well
as implement -                    for the Central Index System’s replacement
systems. However, until ------------- --------- are implemented, USCIS should
document the risk associated with ----- ------------------------------------- and
ensure that the designated approving authority formally accepts this risk.

USCIS concurs with recommendation 6. USCIS is taking steps to improve
security monitoring and incident reporting for the Central Index System. In
addition to the corrective actions listed for OIG recommendations 1-5, USCIS
has transferred ISSO responsibilities from the Office of Records Services to the
Office of the CIO and appointed a new ISSO for the system. USCIS is


Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 11
currently in the process of implementing revised security procedures and
controls, as well as defining the duties and responsibilities for the ISSO. USCIS
plans to complete these activities by September 30, 2005. In addition, the
Office of the CIO plans to reexamine the user administration and management
procedures for the Central Index System, beginning in the first quarter of fiscal
year 2005.

We agree that the actions USCIS plans to take satisfy the intent of the
recommendation.




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 12
               Appendix A
               Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
               The objective of this audit was to determine whether DHS has implemented
               adequate and effective controls over sensitive data contained in its mission
               critical databases. As part of our audit of DHS database security, we
               conducted reviews of critical databases at the following DHS components:
                   •    Emergency Preparedness and Response
                   •    United States Citizenship and Immigration Services
                   •    United States Coast Guard
                   •    United States Secret Service

               For each of the databases included, we determined whether the component
               had implemented effective access controls, continuity of operations
               capabilities, and change management processes. Our focus was to test the
               implementation of secure configurations on the hosts controlling access to
               sensitive DHS data. In addition, we obtained FISMA information required for
               our annual independent evaluation.

               To identify USCIS’ critical database systems, we analyzed the DHS
               Enterprise Architecture inventory of the Department’s IT assets as of
               October 2004. We supplemented this information with NIST SP 800-26
               Security Self-Assessments, where available. Based on our analysis, we
               selected the Central Index System for inclusion in our review.

               To evaluate the effectiveness of controls implemented for the Central Index
               System, we performed extensive manual security parameter checks on the
               Central Index System mainframe computer operating system, security
               software, and DBMS. Upon completion of the tests, we discussed the results
               with USCIS.

               We conducted fieldwork at the USCIS and ICE facilities in Washington, DC;
               the DOJ Justice Data Centers in ------------------ and -       ; and, the
               OIG’s ATL. We conducted our audit from January to May 2005 under the
               authority of the Inspector General Act of 1978, as amended, and according to
               generally accepted government auditing standards. Major OIG contributors to
               the audit are identified in Appendix D.




             Security Weaknesses Increase Risks to Critical USCIS Database
                                                Page 13
  Appendix A
  Purpose, Scope, and Methodology




  Our principal points of contact for the audit are Frank Deffer, Assistant
  Inspector General for Information Technology Audits at (202) 254-4100; and
  Edward G. Coleman, Director, Information Security Audit Division at
  (202) 254-5444.




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 14
  Appendix B
  Management’s Response




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 15
  Appendix B
  Management’s Response




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 16
  Appendix B
  Management’s Response




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 17
  Appendix B
  Management’s Response




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 18
  Appendix B
  Management’s Response




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 19
                        Appendix C
                        FISMA Metrics




    FISMA Requirements
                        Title III of the E-Government Act, entitled FISMA, provides a comprehensive
                        framework to ensure the effectiveness of security controls over information
                        resources that support federal operations and assets.8 The agency’s security
                        program should provide security for the information as well as the systems
                        that support the operations and assets of the agency, including those provided
                        or managed by another agency, contractor, or other source.

                        To comply with OMB’s FISMA reporting requirements, we evaluated the
                        major applications selected for this audit to determine whether DHS continues
                        to make progress in implementing its agency-wide information security
                        program. We collected information relative to certification and accreditation
                        (C&A), system impact level determination, NIST SP 800-26 annual
                        assessment, security control costs integrated into the life cycle of the system,
                        assessment of E-authentication risks, specialized security training, and plan of
                        action and milestones (POA&M).9

                        Our evaluation of the Central Index System shows that the USCIS has not
                        implemented certain security management practices into its information
                        security program, as required by FISMA.




8
  The E-Government Act of 2002 (Public Law 107-347), signed into law on December 17, 2002, recognized the
importance of information security to the economic and national security interests of the United States.
9
  As required by: OMB M-04-04, E-Authentication Guidance for Federal Agencies and NIST 800-63, Electronic
Authentication Guideline.


                      Security Weaknesses Increase Risks to Critical USCIS Database
                                                         Page 20
                            Appendix C
                            FISMA Metrics




                                       Table 1: FISMA Compliance Metrics
FISMA Reporting Requirements                         USCIS                                Notes
Does the major application have a complete and                    The DOJ mainframe that the Central Index System
current C&A, including a risk assessment and                      resides on and the Central Index System applications
security plan?                                                    were certified and accredited separately. The
                                                                  mainframe was issued authority to operate (ATO) on
                                                       Yes
                                                                  December 29, 2004, and the Central Index System
                                                                  applications were issued ATO on December 29, 2003.
                                                                  Both C&A packages include a security plan and a risk
                                                                  assessment.
Has the major application’s impact level been                     The loss of confidentiality, availability or integrity of
determined according to Federal Information            Yes        the Central Index System would have a high impact
Processing Standard 199 criteria?                                 on USCIS’ mission.
Does the major application have a complete and                    An assessment of the Central Index System was
                                                       Yes
current NIST SP 800-26 annual assessment?                         completed on October 11, 2004.
Does the assessment indicate that security                        The assessment indicates that controls are routinely
controls have been tested and evaluated in the                    tested. However, we found that periodic vulnerability
                                                        No
last year?                                                        assessments or configuration reviews are not
                                                                  performed.
Does the assessment indicate that a contingency                   The assessment indicates that an IT contingency plan
plan has been established and tested?                             has been developed but not tested. However, we
                                                        No
                                                                  found that the IT contingency plan for Central Index
                                                                  System applications is not complete or current.
Have security control costs been integrated into                  Security control costs are incorporated and reported to
the life cycle of the system?                          Yes        OMB as 10 percent of the system’s operations and
                                                                  maintenance funding.
Has an assessment of E-Authentication risk            Not         The Central Index System does not provide direct
been performed for the major application?           Applicable    services to the public.
Have the system and database administrators                       System and database administrators receive the same
obtained specialized security training?                           annual security awareness training that all component
                                                        No
                                                                  personnel receive. Specialized security training is not
                                                                  provided.
Does the major application have any existing                      Although the POA&Ms for the Central Index System
POA&Ms?                                                           were not complete or current at the beginning of our
                                                       Yes        review, they were updated prior to the completion of
                                                                  our audit. As of May 12, 2005, POA&Ms were
                                                                  entered for 16 Central Index System weaknesses.
         Source: OIG table based on interviews with USCIS personnel and analysis of database documentation.



                          Security Weaknesses Increase Risks to Critical USCIS Database
                                                             Page 21
  Appendix D
  Major Contributors to this Report




  Information Security Audits Division
  Edward G. Coleman, Director
  Patrick Nadon, Audit Manager
  Jason Bakelar, Audit Team Leader
  Chris Udoji, Auditor
  Meghan Sanborn, Referencer

  Advanced Technology Division
  Jim Lantzy, Director
  Michael Goodman, Security Engineer




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 22
  Appendix E
  Report Distribution




  Department of Homeland Security

  Secretary
  Deputy Secretary
  Chief of Staff
  USCIS, Director
  Executive Secretary
  General Counsel
  Chief Information Officer
  Chief Information Security Officer
  Public Affairs
  USCIS, Chief Information Officer
  USCIS, Audit Liaison
  Director, Departmental GAO/OIG Liaison Office
  Director, Compliance and Oversight Program
  Chief Information Officer Audit Liaison
  Office of Security

  Office of Management and Budget

  Chief, Homeland Security Branch
  DHS OIG Budget Examiner

  Congress

  Appropriate Congressional Oversight and Appropriations Committees




Security Weaknesses Increase Risks to Critical USCIS Database
                                   Page 23
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or e-mail DHSOIGHOTLINE@dhs.gov.
The OIG seeks to protect the identity of each writer and caller.
